No. _____
IN THE

Supreme Court of the United States
_________________________________________________________________________

TERENCE VALENTINE,
Petitioner,
v.
STATE OF FLORIDA,
Respondent.
_________________________________________________________________________

ON PETITION FOR A WRIT OF CERTIORARI TO
THE SUPREME COURT OF FLORIDA

APPENDIX TO PETITION FOR WRIT OF CERTIORARI
DEATH PENALTY CASE

MARIE-LOUISE SAMUELS PARMER
COUNSEL OF RECORD
FLORIDA BAR NUMBER 0005584
MARIE@PARMERDELIBERATO.COM
MARIA DELIBERATO
FLORIDA BAR NUMBER 664251
MARIA@PARMERDELIBERATO.COM

PARMER DELIBERATO, P.A.
P.O. BOX 18988
TAMPA, FLORIDA 33679
(813) 732-3321
Counsel for Petitioner

INDEX TO APPENDICES
Appendix A

Florida Supreme Court opinion affirming the lower court’s denial of
Valentine’s successive 3.851 motion. No. SC18-1102; Valentine v. State,
296 So. 3d 375 (Fla. 2020).

Appendix B

Order of the Thirteenth Judicial Circuit Court in and for Hillsborough
County, Florida, denying relief on Mr. Valentine’s successive motion to
vacate death sentence. Circuit Court Case No. 88-CF-012996 (April 20,
2018).

Appendix C

Motion for Rehearing. Circuit Court Case No. 88-CF-012996 (May 7,
2018).

Appendix D

Order denying Motion for Rehearing. Circuit Court Case No. 88-CF012996 (June 4, 2018).

Appendix E

Successive Motion Pursuant to Fla. R. Crim. Pro. 3.851 to Vacate Sentence
of Death. Circuit Court Case No. 88-CF-012996 (December 21, 2017).

APPENDIX A

Valentine v. State, 296 So.3d 375 (2020)
45 Fla. L. Weekly S174

296 So.3d 375 (Mem)
Supreme Court of Florida.

Terance VALENTINE, Appellant,
v.
STATE of Florida, Appellee.
No. SC18-1102
|
June 4, 2020
An Appeal from the Circuit Court in and for
Hillsborough County, Michelle Sisco, Judge - Case No.
291988CF012996000AHC
Attorneys and Law Firms
Marie-Louise Samuels Parmer and Maria DeLiberato of
Parmer DeLiberato. P.A., Tampa, Florida, for Appellant
Ashley Moody, Attorney General, Tallahassee, Florida, and
Rick A. Buchwalter, Assistant Attorney General, Tampa,
Florida, for Appellee

First, Valentine's claim relating to the legal name of one of
his victims, to whom he had been married, is untimely and
procedurally barred. See Fla. R. Crim. P. 3.851(d)(1) (“Any
motion to vacate judgment of conviction and sentence of
death shall be filed by the defendant within 1 *376 year
after the judgment and sentence become final.”); Hendrix v.
State, 136 So. 3d 1122, 1125 (Fla. 2014) (“Claims raised and
rejected in prior postconviction proceedings are procedurally
barred from being litigated in a successive motion.”). This
information was known to Valentine and raised during his
initial postconviction proceedings. See Valentine v. State, 98
So. 3d 44, 50 n.8, 51 (Fla. 2012).
Second, the trial court properly denied Valentine Hurst2 relief
because he waived his right to a penalty phase jury. See
Twilegar v. State, 228 So. 3d 550, 551 (Fla. 2017) (“[T]he
Hurst decisions do not apply to defendants like Twilegar who
waived a penalty phase jury.”).
Accordingly, we affirm the denial of Valentine's successive
motion for postconviction relief.
It is so ordered.

Opinion
PER CURIAM.

CANADY, C.J., and POLSTON, LABARGA, LAWSON,
and MUÑIZ, JJ., concur.

This case is before the Court on appeal from an order denying
a successive motion for postconviction relief filed under

COURIEL, J., did not participate.

Florida Rule of Criminal Procedure 3.851.1 We affirm the
denial of relief.

All Citations
296 So.3d 375 (Mem), 45 Fla. L. Weekly S174

Footnotes

1
2

We have jurisdiction. See art. V, § 3(b)(1), Fla. Const.
Hurst v. Florida, ––– U.S. ––––, 136 S. Ct. 616, 193 L.Ed.2d 504 (2016); Hurst v. State, 202 So. 3d 40 (Fla. 2016).

End of Document

© 2020 Thomson Reuters. No claim to original U.S.
Government Works.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1

APPENDIX B

IN THE TIIIRTEENTH JUDICIAL CIRCUIT COURT
FOR IIILLSBOROUGH COUNTY, FLORIDA
Criminal Justice and Trial Division

ET!
r°r-

vu

=
-.gm
>c>
4
-0m 96:Q
:»-co N
o rr""r'1
sc

STATE OF FLORIDA

CASE N0.:

__'C)(§J

:=s5*E~§

v.

2.E;"*__

'1

Defendant.

4:8

_3.r.

TERANCE c. VALENTINE,

DIVISION: J -c

4-

/

ORDER DENYING SUCCESSIVE 3.851 MOTION To VACATE AND SET ASIDE THE
JUDGMENT OF CONVICTIONS AND SENTENCE OF DEATH
THIS MATTER is before the Coup on Defendant's Successive 3.851 Motion to Vacate
and Set Aside the Judgment of Convictions and Sentence of Death. Eled on December 21, 2017,

pursuant to Florida Rule of Criminal Procedure 3.851. On January 10, 2018, the State filed its
response.

On February 8, 2018, the Coup held a case management conference.

After

considering Defendant's motion, the State's response. the arguments of counsels presented
during the February 8, 2018, case management conference, as well as the coin file and record,
the Coup finds as follows.
CASE HISTORY

A jury convicted Defendant of armed burglary (count one), kidnapping (counts two and
three), second degree grand theft (count four), first degree murder (count five) and attempt
first degree murder (count six). Defendant waived the penalty phase jury recommendation and,
on September 30, 1994. the trial coin sentenced Defendant to death on count five. The Florida

Supreme Coup vacated Defendant's conviction and sentence on count six, hut otherwise
affirmed Defendant's convictions and sentences. Valentine \'. Stale, 688 So. ad 313 (Fla. 1996).
The Supreme Court of the United States denied certiorari on October 6, 1997_ Sac Valentine v.
Forida, 522 U.S. 830 (1997).

Page l off

Defendant tiled his initial motion for post conviction relief on May 28, 1998, after various
amendments and an evidentiary hearing on certain claims, the posteonviction court ultimately

rendered an order denying relief Defendant appealed the denial of his post conviction motion,

and the Florida Supreme Court aflirnied. Valentine v. State, 98 So. 3M 44 (Fla. 2012).
Defendant now tiles the instant motion.
INSTANT Successive MOTION
I n his successive motion, Defendant asserts his motion is timely under rule

3.85l(d)(2)(B) "[o]n the basis of new Florida law arising from Mosley v. Stale, Bevel v, State,
Hurst v. State, and the enactment ofChapter 2017-1."i Defendant asserts his successive motion

is filed within one year of the aforementioned statutory amendment and case law, therefore, his

motion is timely. Defendant further alleges that as to his first claim, his motion is timely tiled
under mle 3.851(2)(C), as previous post conviction counsel failed to tile such a claim. Defendant
further alleges a manifest injustice would result if he could not tile such a claim now because the

State failed to establish the essential elements of the offenses for which he was convicted.
Defendant raises the following claims:

CLAIM I
MR. VALENTINE'S CONVICTION FOR GRAND THEFT
AUTO, BURGLARY AND KIDNAPPING CANNOT STAND
AS THE STATE FAILED TO PROVE THE CORPUS

DELECTI DUE To DEFECTS IN THE INDICTMENT. AS
FUNDAMENTAL ERROR THIS CLAIM MAY BE RAISED
AT ANY TIME UNDER FLORIDA LAW.
In claim I, Defendant asserts his convictions should be vacated where the indictment
identified the victim as "Livia Porche" but the proof at trial only identified the victim as "Livia

I Mosley V, State, 209 So. 3M 1248 (Fla. 2016), Bevel v. Stale, 221 So. 3M 1168 (Fla. 2017), Hurst
v. State, 202 So. 3M 40 (Fla. 2016), Chapter 201771, Laws of Florida.

Page 2 off

5

Maria Romero." Defendant alleges "the name of the person, as alleged in the indictment, is an
essential element in the legal description of the offense, and the failure to provide it is fatal to a
conviction." Defendant alleges his convictions for grand theft auto, burglary and kidnapping
must be set aside. Defendant alleges counsel failed to challenge this name defect in the
indictment, but such a defect is fundamental error.

Defendant further alleges the conviction for grand then auto must be set aside where the

indictment alleged the vehicle was the property of "Livia and Ferdinand Porches but the proof,
i.e., the vehicle application form, reflected the car was bought and registered in New Orleans,

Louisiana by "L.l\/I. Romero," Defendant contends that because Louisiana is a communal
property state, each spouse owns one half interest in any property purchased or owned by the
other spouse, therefore, Defendant "legally owned and/or had a one half interest in the car he was

alleged to have stolen."

In its response, the State asserts Defendant's motion is untimely, successive and
procedurally barred, and requests that the Court summarily deny Defendant's motion. As to
claim I, the State asserts that in his initial post conviction proceedings, Defendant already raised
allegations that his convictions could not stand where the victim was identified as "Livia Porches
and the vehicle he allegedly stole was marital property. The State asserts this claim is "barred by
a waiver, time bar, subs act bar, law-of-the-case doctrine, and doctrine of res judicata." The State

asserts this claim does not fall within any of the exceptions to the time limitations set forth in
rule 3.85l(d), this claim should have been raised on direct appeal, this claim was already raised
and denied and barred by the law of the case, and lineally, because Defendant did not object in the
trial court, any defect in the indictment has been waived.
The Court agrees with the State's response, and finds the instant claim is untimely,
successive and procedurally barred. Defendant's sentence became final when the Supreme Court
Page 3 of 9

¢

denied certiorari on October 6, 1997. See Fla. R. Crib. P. 3.85l(d)(l)(B) ("For purposes of this

mle, a judgment is final ... on disposition of the petition for writ of certiorari by the United
States Supreme Court, if iiled."). Despite Defendant's assertion to the contrary, the instant claim

does not fall Within any of the time limitation exceptions set forth in rule 3.851. See Fla. R.

Kim. P, 3.85l(d)(2).
As the State notes, Defendant does not cite to or rely on any information that was not
already known to him at the time of trial, direct appeal or previous post conviction proceedings.
Additionally, Defendant previously raised the same issues regarding the victim's name in the
indictment and the grand theft auto conviction in his prior motion for post conviction relief; the
post conviction court denied his claims as procedurally barred, and the Florida Supreme Court

affirmed the denial of his post conviction motion. See Valentine, 98 So. 3M at 50, n.8, 58.
Defendant's allegations are still procedurally barred. See Johnson v, State, 104 So. 3M 1010,
1027 (Fla. 2012) ("Claims that should have been raised on direct appeal are procedurally barred
from being raised in collateral proceedings.").

Additionally, Defendant has not demonstrated that a manifest injustice will occur if he
cannot raise the instant claim. As the State argues, Defendant waived any objection to the
defects in the indictment, and the indictment here was not "so vague, indistinct, and indefinite as

to mislead the accused and embarrass him or her in the preparation of a defense or expose the

accused after conviction or acquittal to substantial danger of a new prosecution for the same
offense." Fla. R. Crim. P. 3.140(o). The Court also finds Defendant's allegations do not rise to a
fundamental error that can be raised at any time as he alleges. See e.g., Deparvine v. State, 995

So. ad 351 (Fla 2008) ("Generally, if an indictment or information fails to completely charge a
crime under the laws of the state, the defect can be raised at any time."), citingStale v. Gray, 435

So.2d 816, 818 (Fla.1983). No relief is warranted on claim I.
Page 4 Qf9

CLAIM HE

MR. VALENTINE COULD NOT KNOWINGLY HAVE
WAIVED HIS RIGHTS TO A UNANIMOUS JURY
VERDICT BECAUSE THAT RIGHT DID NOT YET EXIST.
THEREFORE, HIS JURY WAIVER WAS NOT KNOWING
AND VOLUNTARY AND WAS OBTAINED IN VIOLATION
OF MR. VALENTINE'S FIFTH, EIGHTH AND
FOURTEENTH AMENDMENT RIGHTS UNDER THE
UNITED
STATES
CONSTITUTION
AND
HIS
CORRESPONDING RIGHTS UNDER THE DECLARATION

OF RIGHTS OF THE FLORIDA CONSTITUTION.

CLAIM III
MR. VALENTINE'S DEATH SENTENCE VIOLATES THE
EIGHTH AMENDMENT UNDER HURST V_ STA TE, AND IT
WOULD BE FUNDAMENTALLY UNFAIR TO DEPRIVE
HIM OF ITS BENEFIT.

CLAIM IV
THE EIGHTH AND FOURTEENTH AMENDMENTS TO
THE UNITED STATES CONSTITUTION REQUIRED THE

RETROACTWE APPLICATION OF THE SUBSTANTIVE
RULE ESTABLISHED BY CHAPTER 2017-1.

In claim II of his motion, Defendant alleges pre-Hurst, a defendant could only waive his
right to a jury recommendation of life or death. Defendant asserts he "waived only the right to a

jury recommendation, not his then-unrecognized Eighth Amendment constitutional right to a
unanimous jury fact-finding prior to imposition of death," Defendant asserts he could not validly
waive a right that did not yet exist and was not yet recognized by the courts, and cites to Hilbert
v. Michigan, 545 U.S. 605 (2005). Defendant posits that even if the Court finds "a pre-Hurst

defendant could waiveHurst relief, Defendants waiver was not knowing, voluntary ... because

it did not consider the possibility that Florida's death-sentencing scheme would be found

2 As claims II, III and IV each involve Hurst-related relied the Court will address them together.
Page 5 of 9

unconstitutional."

Defendant claims he waived only his right to a non-unanimous jury

recommendation.

Defendant acknowledges that in Mullets v, State, 197 So. 3M 745 (Fla. 2016), cert.
denied, 137 S. Ct. 672 (2017), the Florida Supreme Court held that capital defendants who

waived their right to a penalty phase jury are not entitled to Hurst relief but contends his current
arguments are different than those addressed in Mullins, and that the holding in Mullins is

contrary to Hilbert. Defendant argues the Court should not deny him relief based on Mullins.
Defendant also contends Hurst should apply retroactively to his case, and sets forth
various reasons. Defendant contends the Hurst error here is not harmless. Defendant requests
that the Court vacate his death sentence and order a new penalty phase proceeding.

Ln claim III, Defendant asserts his sentence stands in violation of the Eight Amendment
and again argues Hurst should apply retroactively to his case.

In claim IV, Defendant argues the Legislature's passage of Chapter 2017-1 created a
substantive right to a life sentence unless a jury unanimously recommended a death sentence.

Defendant mother contends due process and the Eighth Amendment require that this new
substantive right apply retrospectively.

The Court finds the Florida Supreme Court has repeatedly held Hurst v. Florida and
Hurst v. State simply do not apply retroactively to cases that were Hnal before Ring was
decided See Hitchcock v. State, 226 So. 3M 216 (Fla, 2017) (rejecting the defendant's claims
relying on Hurst v. Florida and Hurst v. State to argue that his death sentence is unconstitutional

under the Fifth, Sixth, Eighth, and FoMeenth Amendments to the United States Constitution, the

corresponding provisions of the Florida Constitution, and article I, sections 15 and 16, of the
Florida Constitution, and noting, "We have consistently applied our decision in Away V, denying

Page 6 of 9

the retroactive application of Hurst v, Florida as interpreted in Hurst v State to defendants
whose death sentences were final when the Supreme Court decided Ring..."), Away v. State, 224

So. 3M 695, 703 (Fla. 2017) (rejecting defendant's claims regarding the retroactive application of
Hurst v. State, and Chapter 2017-1, Laws of Florida, and citing its decision in Hitchcock), Away
v. State, 210 So, 3M 1, l0~22 (Fla. 2016) (conducting a retroactivity analysis and concluding that
Hurst should not be applied to defendant's case, which became final before Ring), Lambrix v.

State, 227 So. 3M 112, 113 (Fla. 2017) (citing Hitchcock and Asay and rejecting defendant's
claims for relief based on Hurst and Perry, die Eighth Amendment to the United States

Constitution, denial of due process and equal protection based on the arbitrariness of the
retroactivity decisions Asay and Mosley, and a substantive right based on the legislative passage

of chapter 2017-l), Mosley, 209 So. 3M at 1274 ("[W]e have now held in Away v. State, that
Hurst does not apply retroactively to capital defendants whose sentences were final before the
United States Supreme Court issued its opinion in Ring. "), Hannon v. State, 228 So. 3M 505, 513

(Fla. 2017) ("We have consistently held that Hurst is not retroactive prior to June 24, 2002, the
date that Ring . . was released."). This Court is bound by the decisions of the Florida Supreme

Court.
Here, Defendant's sentence became final when the United State Supreme Court denied

certiorari on October 6, 1997. See Fla. R. Crib. P. 3.85l(d)(l)(B) ("For purposes of this mle, a

judgment is final ... on disposition of the petition for Writ of certiorari by the United States
Supreme Court, if filed."). Because Defendant's sentence was final before Ring was decided, die
Court finds Hurst v, Florida and Hurst v. State, and Chapter 2017-1 , do not retroactively apply to
the instant case. Consequently, Defendant's Hurst issues are time-barred. See Hamilton v. State,

3 Ring was decided on June 24, 2002. See Ring, 536 U.S. at 584.

Page 7 off

236 So. 3M 276 (Fla, 2018) (Ending trial court properly denied defendant's Hurst claim as
untimely where his convictions and sentences became final in 1998).
The Court further notes that even if Defendant's sentence became tonal aider Ring issued,

he would not be entitled to relief because he waived his penalty phase jury and advisory
recommendation. Although Defendant asserts his waiver was not knowingly and voluntarily

entered, die only basis for his claim is that the right to jury fact-finding did not yet exist,
essentially seeking Hurst-based relief However, in Mullins, the Florida Supreme Court held

that a defendant "cannot subvert the right to jury facttinding by waiving that right and then
suggesting that a subsequent development in the law has fundamentally undermined his
sentence" Mullins, 197 So. 3M at 40. The Florida Supreme Court has consistently applied

Mullins and denied any Hurst relief to capital defendants who waived the right to a penalty
phase jury.

See Brant v, State, 197 So. 3M 1051, 1079 (Fla. 2016) (rejecting Defendant's

post conviction Hurst claim, citing Mullins), Allred v. State, 230 So. 3M 412 (Fla. 2017) ("This

Court has consistently relied on Mullins to deny Hurst relief to defendants that have waived the
right to a penalty phase jury."), Twilegar v. State, 228 So. 3M 550 (Fla. 2017) ("As the circuit

court correctly recognized, the Hurst decisions do not apply to defendants like Twilegar who
waived a penalty phase jury."), Knight v. State, 211 So. 3M 1, 5 n. 2 (Fla. 2016) (rejecting

Defendant's Hurst claim and noting "Knight waived his penalty phase jury and, thus, is not

entitled to relied), Covington v. State, 228 So. 3M 49, 69 (Fla. 2017) ("A defendant like
Covington who has waived the right to a penalty phase jury is not entitled to relief under
Hurst."), Quince v State, 233 So. 3M 1017 (Fla. 2018) ("We have since consistently relied on

Mullins to denyHurst relief to defendants who waived a penalty phase jury.").

Defendant is not entitled to relief on claims II, III and IV.

Page 8 of 9

It is therefore ORDERED AND ADJUDGED that Dcfendantls Successive 3.851
Motion to Vacate and Sct Aside the Judgment of Convictions and Sentencc of Death is hereby

DENIED.

This is a final, appealable order. Defendant has thirty (30) days from the date of

rendition to appeal this order. A timely tiled motion for rehearing will toll rendition of this
order.
DONE AND ORDERED in chambers, at Tampa. Hillsborough County, State of Florida

this é2D* = 0fApril. 2018.

u1°\r\"II(2 ;>» ->

MICHELLE SISCO
Circuit Judge
CERTIFICATE OF SERVICE

I HEREBY CERTIFY that a copy of this order has been famished lo Marie-Louise
Samuels Parmer, Esquire, Samuels Parmcr Law Firm. P.A., P.O. Box 18988, Tampa, FL 33679,

Lisa Martin, Esquire, Office of the Attomey General, 3507 E. Frontage Road, Suite 2()0, Tampa,

FL 33607. by U.S. mail, and to Christopher Moody, Esquire, Ofhcc of the State Attomey, 419
Pierce Street, Tampa. FL 33602, by inter-office mail, by inter-offiee §l, on this(

/44 4f~

April, 2018.

llvéuw Clerk

Page 9 of 9

APPENDIX C

Filing # 71787048 E-Filed 05/07/2018 04:33:05 PM

IN THE CIRCUIT COURT OF THE THIRTEENTH JUDICIAL CIRCUIT
IN AND FOR HILLSBOROUGH, FLORIDA
STATE OF FLORIDA,
Plaintiff,
v.

CASE NO. 88-CF-012996

TERENCE G. VALENTINE,
Defendant.
______________________________/
MOTION FOR REHEARING ON ORDER DENYING SUCCESSIVE MOTION TO
VACATE AND SET ASIDE JUDGMENT OF CONVICTIONS AND SENTENCE OF
DEATH
TERENCE G. VELENTINE, Defendant in the above-captioned action, respectfully
moves this Court for rehearing, pursuant to Fla. R. Crim. P. 3.851,

C

O de , e e ed

April 20, 2018, denying his Successive Motion to vacate and set aside his judgments of conviction
and sentence of death. Mr. Valentine respectfully alleges that this Court misapprehended important
facts and/or points of law. In support thereof, Mr. Valentine, through counsel, submits as follows:
1. On December 21, 2017, Mr. Valentine timely filed a Successive Motion Pursuant to Fla.
R. Crim. Pro. 3.851 to vacate his judgments of conviction and sentence of death. The
State filed its Answer on January 10, 2018.
2. This Court conducted a Case Management Conference on February 8, 2018 and heard
argument from the Parties.
3. On April 20, 2018,

C

e e ed a O de de

M.Ba

M

1

5/7/2018 4:33 PM Electronically Filed: Hillsborough County/13th Judicial Circuit Page 1

.

4. This timely Motion for Rehearing follows.
5. As to his Claim I, Mr. Valentine asserts that this court has misapprehended facts and the
record in determining that this claim is procedurally barred as alleged by the State due to
a e,

e ba ,

b ec ba , law-of-the-ca e d c

e, a d d c

e

e

d ca a.

The State asserts that . . . this claim should have been raised on direct appeal, this claim
was already raised and denied and barred by the law of the case, and, finally, because
Defendant did not b ec

e

a c

,a

de ec

eI dc

e

a bee

a ed.

M . Va e

e ca

,

(Order, p. 3.)
6. The State merely provided a laundry-

ea

de

without factual or legal support.
7. This Court stated reason for denying Mr. Valentine c a
a ee

eSae

ced a
8. T

C

e

e, a d

d

e

a

ca

a beca e
e ,

eC
cce

ea d

ba ed. (O de , . 3).
a

regarding the vic

a ed

a , Add
a e

a
e

, De e da

dc

e

e

a ed

e same issues

and the grand theft auto conviction in his

prior motion for postconviction relief, the postconviction court denied his claims as
procedurally barred, and the Florida Supreme Court affirmed the denial of his
postconvic

. (O de , . 4).

9. Notably, this Court failed to attach portions of the record that support this finding and
Mr. Valentine urges this Court to determine that the record demonstrates Mr. Valentine
has not previously raised the same issue. Further, Mr. valentine respectfully asserts that

2

5/7/2018 4:33 PM Electronically Filed: Hillsborough County/13th Judicial Circuit Page 2

this Court misapprehends whether res judicata, collateral estoppel and issue preclusion
apply in the instant case.
10. First, Mr. Valentine did not previously raise this claim. While he raised claims that dealt
with the Indictment and the Grand Theft Auto charge, Mr. Valentine respectfully argues
that this Court misapprehends his claim in finding that he has previously raised the claim.
11. Mr. Valentine has alleged that the State has failed to prove the corpus delecti because the
allegata did not meet the probata as to the identified claims. This failure, and the State s
misconduct and concealment of evidence in this case supporting Mr. Valentine s claims
that the burglary, grand theft auto and kidnapping counts must be set aside due to the
failure of the allegata and probate. This failure rises to the level of manifest injustice,
excusing any time bar.
12. Further, while Mr. Valentine has challenged the grand theft auto count and issues arising
out of the State naming Livia Porche in the indictment, he has not previously raised the
claims in the instant motion.
13. Mr. Valentine argued in Claim XI(7) of his initial postconviction motion that trial counsel
rendered ineffective assistance by failing to file a motion to dismiss Count Four of the
Indictment (Theft of the Chevy Blazer). The initial postconviction court improperly
summarily denied this claim without a hearing, but postconviction counsel failed to raise
the issue on direct appeal so it was never addressed by the Florida Supreme Court.
Valentine v. State, 98 So. 3d 44, 51 (Fla. 2012).

3

5/7/2018 4:33 PM Electronically Filed: Hillsborough County/13th Judicial Circuit Page 3

14. Mr. Valentine argued in Claim I of his initial postconviction motion that where the
Indictment alleged that Livia Porche was the victim, the evidence was insufficient to
sustain a conviction of murder. The postconviction court summarily denied this claim as
procedurally barred as well and postconviction counsel failed to raise the claim on
appeal. Id.
15. Mr. Valentine raised a similar argument in Claim XI(1) that counsel was ineffective for
failing to argue that there was a defect in the Indictment. The postconviction court
improperly summarily denied this claim without a hearing, addressing the claim in a
piecemeal fashion and determining that there was no prejudice. And, again,
postconviction counsel failed to arise this claim on direct appeal. Id.
16. Because Mr. Valentine did not raise any of these claims on direct appeal, the law of the
case doctrine cannot apply:
The Florida Supreme Court has explained that law of the case
doctrine requires that questions of law actually decided on appeal
must govern the case in the same court and the trial court, through
a
be e
a e
e
ceed
. Florida Dep't of Transp.
v. Juliano, 801 So.2d 101, 105 (Fla.2001) (emphasis added). Lawof-the-case principles do not apply unless the issues are decided on
appeal. Id.; see also Kelly v. State, 739 So.2d 1164, 1164 (Fla. 5th
DCA 1999) ( d
a [ ] cce
e 3.800(a)
eaddressing issues previously considered and rejected on the merits
and reviewed on appeal are barred by the doctrine of law of the
ca e ). Beca e McB de d d
a ea e e
de
denying his rule 3.800 motion, the district court correctly held that
the law of the case doctrine does not apply.
State v. McBride, 848 So. 2d 287, 289 90 (Fla. 2003)

4

5/7/2018 4:33 PM Electronically Filed: Hillsborough County/13th Judicial Circuit Page 4

17. The same is true here, because Mr. Valentine did not raise the argument on appeal, the
law of the case doctrine cannot apply.
18. The Florida Supreme Court has defined the principle of res judicata, as,
A judgment on the merits rendered in a former suit between the
same parties or their privies, upon the same cause of action, by a
court of competent jurisdiction, is conclusive not only as to every
matter which was offered and received to sustain or defeat the
claim, but as to every other matter which might with propriety
have been litigated and determined in that action.
Kimbrell v. Paige, 448 So. 2d 1009, 1012 (Fla. 1984).
19. Res judicata does generally not apply to postconviction proceedings under 3.800,
although its companion, collateral estoppel does apply.
Under Florida law, collateral estoppel, or issue preclusion, applies
when the identical issue has been litigated between the same
parties or their privies. Gentile v. Bauder, 718 So.2d 781, 783
(Fla.1998). In addition, the particular matter must be fully litigated
and determined in a contest that results in a final decision of a
court of competent jurisdiction. See B.J.M., 656 So.2d at 910. City
of Oldsmar v. State, 790 So.2d 1042, 1046 n. 4 (Fla.2001).
Although collateral estoppel generally precludes relitigation of an
issue in a subsequent but separate cause of action, its intent, which
is to prevent parties from rearguing the same issues that have been
decided between them, applies in the postconviction context. As
explained above, under the principles of res judicata a defendant
would be prohibited from filing any successive 3.800 motion on
any issue that was or could have been raised. Collateral estoppel,
on the other hand, only precludes a defendant from rearguing in a
successive rule 3.800 motion the same issue argued in a prior
motion.
State v. McBride, 848 So. 2d 287, 290 91 (Fla. 2003)
20. Neither of these principles, res judicate or collateral estoppel, apply here, however,
because, as is apparent from reading the pleadings and the record, Mr. Valentine is not

5

5/7/2018 4:33 PM Electronically Filed: Hillsborough County/13th Judicial Circuit Page 5

rearguing the same issues. Further, neither of these principles apply if they defeat the
ends of justice or result in a manifest injustice. McBride at 291.
21. Mr. Valentine raised in the instant motion that the allegata and probata did not meet as to
the grand theft, burglary and kidnapping counts because the Indictment it was obtained
through the fraud of Livia Romero that was then advanced by the State at trial which
rendered the grand theft auto, burglary and kidnapping charges invalid and lacking in
proof. Mr. Valentine has never previously raised such an argument a d

C

finding otherwise is clear error.
22. M . Va e

e e ec

e e

a

C

eadd e

M . Va e

e a

e

applying the above stated principles of law.
23. As to his Claim II, III and IV, Mr. Valentine argued that he could not have waived his
right to a unanimous jury verdict under the Eighth Amendment, and that Mullens v. State,
197 So. 3d 16 (Fla. 2016) did not preclude relief because that case involved a claim of
ineffective assistance of counsel and a violation of the Sixth Amendmen . We eed
extensively consider the implications of Hurst to determine that Mullens cannot avail
himself of relief pursuant to Hurst. Hurst said nothing about whether a defendant could
waive the Sixth Amendment right to jury factfinding in sentencing procedures as
recognized by Ring . . Id. at 38.
24. The Mullens c

a d

e

e De e da

a

e

a

a e

e

sentencing phase and engaged in a cursory analysis of a Sixth Amendment argument and
thus does not preclude Mr. Valentine from relief.

6

5/7/2018 4:33 PM Electronically Filed: Hillsborough County/13th Judicial Circuit Page 6

25. Mr. Valentine has alleged in his Successive Motion that his waiver was invalid because he
could not knowingly waive a right that did not yet exist, and thus, the Florida Supreme
C

d

Hutchison notwithstanding, he is entitled to set aside his

unconstitutionally obtained sentence of death under principles of federal law.
26. La

, M . Va e

e a a

ed

a

eF

da S

e eC

ab a

e

ac

cut-off is unconstitutional under federal law. This Court did not squarely address this
argument.
WHEREFORE, Mr. Valentine respectfully requests that this Court reconsider its ruling, grant
rehearing, address all of his arguments and set aside his convictions and sentence of death.
Respectfully Submitted,
/s/ Marie-Louise Samuels Parmer
Marie-Louise Samuels Parmer
Florida Bar Number 0005584
Email: marie@samuelsparmerlaw.com
Samuels Parmer Law Firm, P.A.
P.O. Box 18988
Tampa, Florida 33679
Tel: (813) 732-3321
Fax: (813) 831-0061
CERTIFICATE OF SERVICE
I HEREBY CERTIFY that a true copy of the foregoing was filed using the Florida Courts efiling
Portal

which

has

electronically

capapp@myfloridalegal.com;
lisa.martin@myfloridalegal.com

served

the

Assistant

Office

Attorney

:Ron

Gale,

of

the

General
Assistant

Attorney

General,

Lisa

Martin,

State

7

5/7/2018 4:33 PM Electronically Filed: Hillsborough County/13th Judicial Circuit Page 7

Attorney,

mailprocessingstaff@sao13th.com , and the Honorable Michelle Sisco, Circuit Court Judge,
siscodm@fljud13.org, on this 7th day of May, 2018.
/s/Marie-Louise Samuels-Parmer
MARIE-LOUISE SAMUELS-PARMER
Fla. Bar No. 0005584

Copies provided by U.S. Mail to:
Terence G. Valentine
DOC#119682
Union Correctional Institution
P. O. Box 1000
Raiford, FL 32083

8

5/7/2018 4:33 PM Electronically Filed: Hillsborough County/13th Judicial Circuit Page 8

APPENDIX D

APPENDIX E

Filing # 65733224 E-Filed 12/21/2017 11:41:35 PM

IN THE THIRTEENTH JUDICIAL CIRCUIT
IN AND FOR HILLSBOROUGH COUNTY, FLORIDA
STATE OF FLORIDA
v.

CASE NUMBER: 88-12996
DIVISION C

TERENCE VALENTINE
Defendant
________________________/
SUCCESSIVE 3.851 MOTION TO VACATE AND SET ASIDE THE JUDGMENT OF
CONVICTIONS AND SENTENCE OF DEATH
The Defendant, TERENCE VALENTINE, by and through his undersigned counsel
respectfully moves this Honorable Court for an Order vacating and setting aside the judgment of
conviction and sentence, including his sentence of death, pursuant to Fla. R. Crim. Pro. 3.851. In
support thereof, the Defendant submits the following:
JUDGMENT AND SENTENCE UNDER ATTACK
Mr. Valentine attacks the judgment of conviction and sentence entered on September 30,
1994, by the Honorable Diana M. Allen, Circuit Court Judge, Thirteenth Judicial Circuit, in and
for Hillsborough County, Florida, including his sentence of death. A copy of the Judgment and
Sentence is attached.
STATEMENT OF EACH ISSUE RAISED ON APPEAL AND IN PRIOR POST
CONVICTION PROCEEDINGS
The State of Florida charged Mr. Valentine by indictment on September 21, 1988 with
Count One, Burglary-Armed, F.S. 810.02, a first degree felony; Count Two, Kidnapping, F.S.
787.01 (1)(A)(3), a first degree felony; Count Three, Kidnapping, F.S. 787.01 (1)(A)(3), a first
degree felony; Count Four, Grand theft-Second Degree, F.S. 812.014 (2)(B), a second degree

12/21/2017 11:41 PM Electronically Filed: Hillsborough County/13th Judicial Circuit Page 1

felony; Count Five, First Degree Murder, F.S. 782.04, a capital felony; and Count Six, Attempted
Murder-First Degree, F.S. 782.04 and F.S. 777.04, a first degree felony.
Mr. Valentine s first trial resulted in a mistrial where the jur was unable to reach
a verdict. After a second trial, Mr. Valentine, who has consistently maintained his innocence of
these crimes and presented evidence that he was in Costa Rica at the time of the crimes, was
convicted on all counts. The jury recommended death on the first-degree murder charge and the
judge imposed a sentence of death. The Florida Supreme Court reversed the conviction and
vacated the sentence due to the State s improper use of peremptor challenges pursuant to State v.
Neil, 457 So.2d 481 (Fla. 1984). Valentine v. State, 616 So.2d 971 (Fla. 1993).
On retrial, Mr. Valentine was again convicted on all counts. Mr. Valentine waived his right
to a non-unanimous, advisory jury sentence and presented mitigating evidence directly to the
judge. The trial court sentenced Mr. Valentine to death on September 30, 1994.
Mr. Valentine timely appealed. Mr. Valentine raised the following claims on direct appeal
arguing that the trial court erred by (1) finding that the husband and wife privilege did not bar
Romero's testimony about Porche's murder; (2) denying Valentine's motion to suppress post-arrest
statements that Valentine had made to the police; (3) denying Valentine's motion to strike
testimony by the state's footprint expert on the ground that the testimony was too speculative; (4)
declining Valentine's motion to appoint a jury selection expert; (5) not allowing Valentine to have
the concluding argument before the jury even though Valentine had presented alibi witnesses
during his defense; (6) giving the jury the standard jury instruction on reasonable doubt; (7)
convicting Valentine of attempted first-degree murder because the conviction could rest on
attempted felony murder, which is a nonexistent offense; (8) finding the murder to have been cold,
calculated, and premeditated; and (9) failing to find several mitigators. The Florida Supreme Court

12/21/2017 11:41 PM Electronically Filed: Hillsborough County/13th Judicial Circuit Page 2

denied all of his claims. The Florida Supreme Court reversed the conviction for attempted firstdegree murder and vacated the sentence, however, the court affirmed the remaining convictions
and sentences, including the sentence of death. Valentine v. State, 688 So.2d 313 (Fla. 1996), cert.
denied, 522 U.S. 830, 118 S.Ct. 95, 139 L. Ed. 2d 51 (1997). Mr. Valentine s case became final in
1997 upon the denial of certiorari.
Mr. Valentine timely pursued his rights to collaterally challenge his convictions and
sentence of death. Mr. Valentine filed a motion for post-conviction relief. The motion was
amended a number of times. In his final amended motion, Mr. Valentine raised the following
claims: (1) his conviction could not be sustained because the alleged name of the victim was Livia
Porche and the onl proof offered showed that the victim's name was Livia Maria Romero ; (2)
the trial court erred by denying his motion to sever all counts in the indictment relating to
Ferdinand Porche; (3) the trial court erred in allowing the introduction of inculpatory recorded
communications that were deliberatel elicited from Valentine after he had been indicted; (4) fruit
of the poisonous tree should not have been introduced at trial because it resulted from Valentine's
illegal arrest; (5) law enforcement failed to advise the Costa Rican consulate of Valentine's arrest
and also failed to advise Valentine of his rights to contact the consulate under the Vienna
Convention on Consular Relations; (6) he was denied a fair trial due to prosecutorial misconduct
during closing argument which rendered the guilty verdicts fundamentally unfair and unreliable;
(7) he was improperly convicted of grand theft because the property that was allegedly stolen was
a marital asset acquired during Valentine's marriage to Romero; (8) he was improperly sentenced
to death because his vacated conviction for attempted murder was the sole support for the prior

3

12/21/2017 11:41 PM Electronically Filed: Hillsborough County/13th Judicial Circuit Page 3

violent felony aggravator found by the sentencing court; (9) the trial court erred in failing to file
written reasons for its departure from the sentencing guidelines; (10) the prosecutor directed an
illegal search of Valentine's jail cell and improperly seized Valentine's personal papers; (11) that,
as explained in fifteen subclaims, he was denied effective assistance of counsel; (12) he was denied
effective assistance of counsel by penalty phase counsel's failure to investigate and uncover mental
health mitigation and by penalty phase counsel's failure to otherwise prepare for the penalty phase
of the trial; (13) he was deprived of a fair trial due to cumulative procedural and substantive error;
(14) his right to be free from cruel and unusual punishment will be violated because he may not
be competent at the time of his execution. Valentine v. State, 98 So. 3d 44, 50 (Fla. 2012). Mr.
Valentine timely filed a petition for writ of certiorari which was denied on October 6, 1997.
Valentine v. Florida, 522 U.S. 830 (1997).
On appeal from the denial of his post-conviction motion, Valentine raised the following
claims: (A) counsel was ineffective for failing to object or otherwise prevent Livia Romero from
being referred to or portrayed as divorced from Valentine and married to Ferdinand Porche; (B)
counsel was ineffective for failing to adequately investigate and uncover mental health mitigation;
and (C) the postconviction court erred in summarily denying three ineffective assistance of counsel
claims. Valentine v. State, 98 So. 3d 44, 51 (Fla. 2012). The Florida Supreme Court denied all of
his claims.
Mr. Valentine timely filed a petition for writ of habeas corpus with the federal district court.
That case is sta ed pending exhaustion of Mr. Valentine s Hurst remedies. Valentine v. Secretary,
Dept. of Corr., 8:13-cv-30-T-23TBM.

4

12/21/2017 11:41 PM Electronically Filed: Hillsborough County/13th Judicial Circuit Page 4

Reasons Claims Listed Below were not Previously Raised
On the basis of the new Florida law arising from Mosley v. State, Bevel v. State, and the
enactment of Chapter 2017-1, Valentine files this successive motion to vacate and presents his
claims for relief arising from the resulting new Florida law. On January 12, 2016, Hurst v.
Florida, 136 S. Ct. 616 (2016), issued. The decision declared Florida s capital sentencing
scheme unconstitutional. On March 7, 2016, Chapter 2016-13 was enacted. It was the
legislature s first effort to rewrite Fla. Stat.

921.141 in attempt to cure the constitutional

deficiencies.
On October 14, 2016, the Florida Supreme Court ( FSC ) issued its decision in Perry v.
State, 210 So. 3d 630 (Fla. 2016), and declared the 10-2 provision contained in Chapter 2016-13
to be unconstitutional under Hurst v. Florida. In Perry, the FSC concluded that the Sixth and the
Eighth Amendments required a unanimous jury verdict recommending a death sentence before
one could be imposed. As the FSC explained in Hurst, Not onl does jur unanimit further the
goal that a defendant will receive a fair trial and help to guard against arbitrariness in the ultimate
decision of whether a defendant lives or dies, jury unanimity in the jury's final recommendation of
death also ensures that Florida conforms to the evolving standards of decenc that mark the
progress of a maturing societ , which inform Eighth Amendment anal ses. Hurst v. State, 202
So. 3d 40, 72 (Fla. 2016) (internal citations omitted). Accordingly, the jury must unanimously find
that sufficient aggravators exist to justify a death sentence and that the aggravators outweigh the
mitigating factors present in the case. Finally, if a unanimous death recommendation is not
returned, a death sentence cannot be imposed. Thus, a life sentence is mandated if one or more

5

12/21/2017 11:41 PM Electronically Filed: Hillsborough County/13th Judicial Circuit Page 5

jurors vote in favor of a life sentence due to a desire to be merciful, even if the jury unanimously
determined that sufficient aggravators existed and that they outweighed the mitigators that were
present. Perry v. State, 210 So. 3d 630, 640 (Fla. 2016), quoting Hurst, 202 So. 3d at 59 ( the
penalty phase jury must be unanimous in making the critical findings and recommendation that
are necessary before a sentence of death may be considered b the judge or imposed. ) See also
Hurst, 202 So.3d at 62, n. 18.
On December 22, 2016, the Florida Supreme Court decided Mosley v. State, 209 So. 3d
1248 (Fla. 2016). After conducting a Witt1 and James2 analysis, the court decided that Mosley was
entitled to the retroactive effect of Hurst and the error was not harmless. Therefore, Mosle s death
sentence was vacated and he was entitled to a new penalty phase. Id. at 1284.
On March 13, 2017, Chapter 2017-1 was enacted, which finally created a constitutional
capital sentencing scheme in Florida. Florida law further evolved on June 15, 2017 when the
Florida Supreme Court decided Bevel v. State, 221 So. 3d 1168 (Fla. 2017). Bevel s conviction
became final after Ring3, therefore Bevel was entitled to retroactive Hurst relief. Id. at 1175.
Further, Bevel acknowledges that Hurst has affected the prejudice analysis of Strickland4 claims.
See id. at 1179. Although Bevel s jur recommendation was unanimous, his death sentence was
vacated because the unpresented evidence of substantial mitigation could have swa ed one juror,
which would have made a critical difference. Id.

1

Witt v. State, 387 So.2d 922 (Fla. 1980).
James v. State, 615 So.2d 668 (Fla. 1993).
3
Ring v. Arizona, 536 U.S. 584 (2002).
4
Strickland v. Washington, 466 U.S. 668 (1984).
2

6

12/21/2017 11:41 PM Electronically Filed: Hillsborough County/13th Judicial Circuit Page 6

This successive motion is filed within one year of the issuance of Mosley v. State, Bevel v.
State, and the enactment of Chapter 2017-1, all of which have established new Florida law. The
claims below could not have been raised previously because these claims arise from changes in
Florida law caused by these opinions and the statutory amendment. These claims were not ripe
until now because their basis did not exist before these changes in Florida law. Further, Fla. R./
Crim. Pro. 3.851(2)(C) provides for the filing of a motion when the Defendant alleges that prior
post-conviction counsel, through neglect, failed to file the motion. As to Mr. Valentine s claim
alleging a violation of the corpus delecti rule, prior counsel failed to file a motion on Mr.
Valentine s behalf alleging such a claim and, further, because the State has failed to establish the
essential elements of the crimes of which Mr. Valentine was convicted, a manifest injustice would
occur should he not be able to file this Motion. Accordingly, this motion is timely.
(C)

NATURE OF RELIEF SOUGHT
Mr Valentine respectfully asks that his judgments of conviction and sentence of death be

vacated.
(D)

CLAIMS FOR WHICH AN EVIDENTIARY HEARING IS SOUGHT.

CLAIM I
MR. ALEN INE CON IC ION FOR GRAND THEFT AUTO, BURGLARY AND
KIDNAPPING CANNOT STAND AS THE STATE FAILED TO PROVE THE CORPUS
DELECTI DUE TO DEFECTS IN THE INDICTMENT. AS FUNDAMENTAL ERROR
THIS CLAIM MAY BE RAISED AT ANY TIME UNDER FLORIDA LAW
In order to sustain a conviction, it is axiomatic that the State must prove each and every
element in the indictment, including the identity of the victim. The Due Process Clause protects a
7

12/21/2017 11:41 PM Electronically Filed: Hillsborough County/13th Judicial Circuit Page 7

defendant against conviction except upon proof beyond a reasonable doubt of every fact
necessary to constitute the crime with which he is charged. In Re Winship, 397 U.S. 358 (1970).
It is the State, and the State alone who bears this burden of proof. Mullaney v. Weber, 421 U.S.
684 (1975). Elements must be charged in the indictment and proven by the State beyond and to
the exclusion of a reasonable doubt. Jones v. United States, 526 U.S. 227 (1999). Franki v. State,
699 So. 2d 1312 (Fla. 1997). The allegata shall fulfill the probata in order to sustain a lawful
conviction. Regardless of whether evidence is direct or circumstantial, proof of elements of
corpus delecti must be established beyond a reasonable doubt. Freeman v. State 101 So. 2d 887
(Fla. 2d DCA 1958). The term corpus delicti connotes the bod of the offense, or, otherwise
stated, the substance of the crime. 26 Am.Jur. section 6, p. 159. As applied to homicide cases in
the Florida jurisdiction, the corpus delicti consists of three essential ingredients: (1) the fact of
death, (2) the existence of the criminal agency of another person as the cause of death, and (3) the
identity of the deceased. Id. at 888 (emphasis added).
Where the indictment in this case alleged the name of the victim to have been Livia
Porche , and the onl proof offered to sustain such allegation showed that her name was Livia
Maria Romero, a conviction cannot be sustained. A material variance between the name alleged,
and that proved, is fatal. Primarily, it is a question of identity and the essential thing in the
requirement of correspondence between the allegation of the name in the indictment and the proof
is that the record must be such as to inform the defendant of the charge against him and to protect
him against another prosecution for the same offense.

Raulerson v. State, 358 So. 2d 826, 830

(Fla. 1978). Defendant submits that the name of the person, as alleged in the indictment, is an

8

12/21/2017 11:41 PM Electronically Filed: Hillsborough County/13th Judicial Circuit Page 8

essential element in the legal description of the offense, and the failure to prove it is fatal to a
conviction. Jacobs v. State, 35 So. 65 (Fla. 1903).
In Mr. Valentine s case, there exists a material variance between the name alleged
Porche -

Livia

and the fact proved, such that Mr. Valentine was not protected against another

prosecution for the same offense. [C]onviction for an offense for which he was never charged or
tried by the State is fundamental reversible error. Rose v. State, 507 So.2d 630 (Fla. 5th DCA
1987). As the Rose court observed:
It is elementary that the conviction of a crime not charged violates constitutional
due process as well as the constitutional right of the accused in all criminal cases to
be informed of the nature and cause of the accusation against him. The violation of
such constitutional rights constitutes fundamental error and is presumptively
prejudicial and most certainly not within the discretion of any judge to permit.
Id. at 631-632. See also Brennan v. State, 651 So. 2d 244, 245 46 (Fla. 3d DCA 1995). His
convictions must be set aside.
The State charged Mr. Valentine with burglary, kidnaping, grand theft auto, and attempted
murder. After Mr. Valentine was sentenced, the Florida Supreme Court held that the crime of
attempted first-degree felony murder does not exist in Florida. State v. Gray, 654 So.2d 552
(Fla.1995). The Florida Supreme Court held in Mr. Valentine s case that because the jury may
have relied on this legally unsupportable theory, the conviction for attempted first-degree murder
must be reversed. See Griffin v. United States, 502 U.S. 46, 112 S.Ct. 466, 116 L.Ed.2d 371
(1991). Valentine v. State, 688 So. 2d at 317. The court, however, upheld the convictions for
burglary, kidnapping and grand theft auto. Those convictions cannot be sustained.
The Conviction for Grand Theft Auto Must be Set Aside
9

12/21/2017 11:41 PM Electronically Filed: Hillsborough County/13th Judicial Circuit Page 9

The conviction for grand theft auto must fail. Count Four of the Indictment charged that Defendant
did knowingly and unlawfully obtain or use, or endeavor to obtain or use, certain, property of
another, to-wit: a Chevy blazer, the property of Livia and Ferdinand Porche. Salerno v. State 347
So.2d 659 (Fla. 4th DCA 1977). However, the vehicle in question belonged to Livia Romero as
evidenced by the vehicle application form and the State failed to amend the Indictment to reflect
the true ownership of the vehicle. Defendant submits that the Chevy Blazer in question was not
the property of Livia and Ferdinand Porche as stated in the Indictment. Therefore, the conviction
for theft of that vehicle cannot be sustained.
The car alleged to have been stolen in the Indictment was bought and registered in New
Orleans, Louisiana (a communal property state) by L.M. Romero. 5 The Louisiana Civil Code, Art.
2340, Presumption of community, provides: Things in the possession of a spouse during the
existence of a regime of community of acquets and gains are presumed to be community, but either
spouse may prove that they are separate property. The presumption is strong and a spouse who
would rebut it must do so by clear and convincing evidence. Succ. of Lyons, 452 So.2d 1161
(La.1984); Dance v. Dance, 552 So.2d 658 (La.App. 2d Cir.1989). Johnson v. Johnson, 582 So.
2d 926, 928 (La. Ct. App. 1991).
Because Louisiana is a community property state, each spouse under La. State Constitution,
Art. 2336, Ownership of community property- has a one half interest in any property purchased or
owned by their spouse. La. Const. Art 2369.1 After termination of communit propert regime,

5

The VIN (1G8CS18R8(or G0R6)8117864) of the car was registered to Livia Maria
Romero Gutierrez. Counsel is seeking a copy of the VIN and registration of the car and seeks to
amend the pleading upon receipt of the documents.
10

12/21/2017 11:41 PM Electronically Filed: Hillsborough County/13th Judicial Circuit Page 10

the provisions governing co-owner apply to former community property, unless otherwise
provided by law or judicial act. La. Const Art 2369.2. Thus, each spouse owns one-half interest in
former community property and its fruits and products. Mr. Valentine legally owned and/or had a
one half interest in the car he was alleged to have stolen.
Because Mr. Valentine maintained a legally recognized ownership interest in the Blazer,
he cannot be guilty of theft of the car. Jenkins v. State, 898 So. 2d 1134 (Fla. 1st DCA 2005);
Brennan v. State, 651 So. 2d 244, 246 (Fla. 3d DCA 1995), Hinkle v State, 355 So. 2d 465, 467
(Fla. 3d DCA 1978). It is the established law of this state that a co-owner of property cannot be
held guilty of larceny of said property. This is true because the co-owner is in lawful possession
of the joint property and cannot be guilty of (1) taking the property (2) of another, two of the
essential elements of larceny. The only exception to his rule is in the very unique situation where
an owner takes his own goods from one who has a special property right in them and a legal right
to withhold them from the owner. As a general rule, however, one cannot steal his own goods.
Hinkle, 355 So. 2d at 467. The State showed no such proof that the purported owner of the car
had the right to withhold the use of the car from Mr. Valentine.
This court must set aside Mr. Valentine s conviction for Grand Theft Auto in Count Four
of the Indictment.
The Conviction for Burglary Must be Set Aside
To support a conviction of burglary the State must prove elements of ownership.
Ownership of the building or structure is a material element of the crime of burglary. In re M.E.,
370 So.2d 795, 796 (Fla.1979). The purposes of the ownership element are to prove the accused

11

12/21/2017 11:41 PM Electronically Filed: Hillsborough County/13th Judicial Circuit Page 11

does not own the property and to sufficiently identify the offense to protect the accused from a
second prosecution for the same offense. In re M.E., 370 So.2d at 796 97.
The Florida Supreme Court has held that the ownership element in burglary is not the same
as ownership in propert law but, rather, means an possession which is rightful as against the
burglar and is satisfied b proof of special or temporar ownership, possession, or control. Id. at
797. D.S.S. v. State, 850 So. 2d 459, 461 62 (Fla. 2003). Thus, ownership is a material element of
the crime of burglary and the State must prove the ownership consistent with the allegations in the
Indictment. To support a conviction for burglary, The State must prove that the victim is the same
person as alleged in the Indictment. Miller v State, 233 So. 2d 448 (Fla. 1st DCA 1970).
During the course of the trial, Livia was allowed to falsely testify that she divorced
Valentine in Jefferson Parish, Louisiana, started dating Ferdinand Porche and married Porche in
1986. ( FSC ROA Vol. VII p. 484-485). Although Livia admitted that she was still married to
Valentine, ( FSC ROA Vol. IX p. 805), during the trial, she also testified falsely that she filed for
divorce from Valentine and that she married Porche on December 2, 1986 in Jefferson Parish,
Louisiana. (FSC ROA Vol. X p. 956-958). Defense counsel obtained a Certification from the
deputy Clerk in Jefferson Parish, Louisiana and provided that document to the State prior to trial.
The Certificate stated in pertinent part that a diligent search of the records failed to disclose any
record, report, statement, data compilation or entry reflecting the commencement or initiation of
an action or law suit to terminate or dissolve the marriage of Valentine and Livia Romero.
Additionally, the certificate stated in pertinent part that in searching the marriage indices, the clerk
did not find a marriage license recorded for Livia and Ferdinand Porche. (FSC ROA Vol. X p.

12

12/21/2017 11:41 PM Electronically Filed: Hillsborough County/13th Judicial Circuit Page 12

967-968).
The Kidnapping Conviction Cannot Stand
Count Two of the Indictment charged that Defendant did forcibly, secretly or by threat,
confine, abduct or imprison Livia Porche. ( FSC ROA Vol. 1 p.32-35). While the Indictment
alleged the individual kidnapped was Livia Porche, Livia Porche does not exist. The indictment
charged the offenses to have been committed on Livia Porche, but the testimony at trial was that
the victim was Livia Maria Romero. ( FSC ROA Vol. VII p. 464-467). There was no valid proof
that Livia Romero was known by the surname of Porche as alleged in the indictment.
The name of the person assaulted, as alleged in the indictment, is an essential element in
the legal description of the offense, and the failure to prove it is fatal to the conviction. McFarland
v. State, 154 Ind. 442, 56 N.E. 910; Regina v. Dent, 2 Cox, Cr. Cas. 354; Regina v. Frost, Dearsl s
Crown Cas. 474; Jackson v. State, 55 Wis 589, 13 N.W. 448; English v. State, 30 Tex. App. 470,
18 S. W. 94; Perry v. State, 4 Tex. App. 566; Davis v. People, 19 III. 74; Penrod v. People, 89 III.
150; Hensley v. Commonwealth, 1 bush (Ky.) 11, 89 Am. Dec. 604. Because of the failure to
prove the surname Porche, as charged in the indictment, the proof fails to sustain the charge as
made by such indictment. Burroughs v. States,17 Fla 643 (Fla. 1880).
In a prosecution for kidnaping, a material variance between the allegations and proof as to
the name of the person allegedl kidnaped is fatal. Insufficienc of proof, in other words, is legal
error. Jackson v. Virginia, 443 U.S. 307, 319, 99 S. Ct. 2781, 2789, 61 L. Ed.2d 560 (1979). A
variance between the allegations and proof as to the name of the person assaulted raises questions
of identity. The name of the person assaulted as alleged in the indictment is an essential element

13

12/21/2017 11:41 PM Electronically Filed: Hillsborough County/13th Judicial Circuit Page 13

in the legal description of the offense, and the failure to prove it is fatal to a conviction.
In an indictment, the true legal name of the alleged victim is a part of the description of the
offense and is required to be correctly given so that the alleged victim may be identified by the
charge in the indictment. The indictment in this case did not otherwise identify the alleged victim
except by the name of Livia Porche. Snipes v. States, 733 So.2d 1000 (Fla. 1999). There having
been no other description of the alleged victim in the indictment , the failure to prove the name as
stated in the information is fatal to the conviction. Wharton s Criminal Procedure, § 158, p. 212;
Wharton s Criminal Evidence, § 94, p. 285;31 Corpus Juris, 848, § 465; State v. Dudley, 7 Wis.
664; Luttrell v. State, 65 Tex Cr. R. 102, 143 S.W. 628; Gandy v. State, 27 Neb. 707, 43 N.W. 747,
44 N.W. 108; State v. English, 67 Mo. 136; Irwin v. State, 117 Ga. 722, 45 S. E. 59; People v.
Hughes, 41 Cal 234; United States v. Howard, 26 Fed. Cas. 388, No. 15103; State v. Sherrill, 81
N.C. 550; Jacob v. State, 651 So.2d 147 (Fla. 2d DCA 1995). Trial counsel did not challenge this
defect in the indictment. Although no objection was made at trial this constitutes fundamental
error.
Here, the conviction must be reversed upon the authority of Jacobs v. State, 35 So. 65
(1903) and its progeny. There is no evidence in the record to identify Livia Maria Romero as the
person alleged to have been the victim. See Rose v. State, 507 So.2d 630 (Fla. 5th DCA 1987)
( An attempted robber of ...an person is a distinctl different factual event and crime from an
attempted robber of...an person other. ). See also Lattimore v. State, 202 So.2d 3 (Fla. 3d DCA
1967). Therefore, the conviction cannot be sustained.
Defendant contends that the testimony and evidence presented during his trial clearly

14

12/21/2017 11:41 PM Electronically Filed: Hillsborough County/13th Judicial Circuit Page 14

indicated that the person allegedly confined, abducted or imprisoned was not Livia Porche as stated
in the Indictment. Therefore, the conviction for kidnaping cannot be sustained.
Accordingl , Defendant s judgment of conviction and sentence for grand theft auto,
burglary and kidnapping must be vacated and set aside.
CLAIM II
MR. VALENTINE COULD NOT KNOWINGLY HAVE WAIVED HIS RIGHTS TO A
UNANIMOUS JURY VERDICT BECAUSE THAT RIGHT DID NOT YET EXIST.
THEREFORE, HIS JURY WAIVER WAS NOT KNOWING AND VOLUNTARY AND
WAS OBTAINED IN VIOLATION OF MR. VALENTINE FIF H, EIGH H, AND
FO R EEN H AMENDMEN RIGH
NDER HE NI ED A E
CONSTITUTION AND HIS CORRESPONDING RIGHTS UNDER THE
DECLARATION OF RIGHTS OF THE FLORIDA CONSTITUTION, .
This claim is evidenced by the following:
1.

All other allegations and factual matters contained elsewhere in this motion are fully

incorporated herein by specified reference.
2.

This Court should not deny Mr. Valentine s motion based on Mullens v. State, 197

So. 3d 16 (Fla. 2016), because Defendant has substantial arguments not previously raised or
considered in Mullens.
Defendant Cannot Knowingly Waive a Right Which Does Not Yet Exist
3. A defendant cannot waive a right not yet recognized by the courts. Halbert v. Michigan,
545 U.S. 605, 623 (2005); see also Management Health Systems, Inc. v. Access Therapies, Inc.,
No. 10-61792-CIV, 2010 WL 5572832 (S.D. Fla. Dec. 8, 2010) ( It is axiomatic that a part cannot
waive a right that it does not et have. ) Cru v. Lowe s Home Centers, Inc., No. 8:09-cv-1030T-30MAP, 2009 WL 2180489, at *3 (M.D. Fla. Jul. 21, 2009) (same); cf. Menna v. New York, 423

15

12/21/2017 11:41 PM Electronically Filed: Hillsborough County/13th Judicial Circuit Page 15

U.S. 61 (1975) (guilt pleas do not inevitabl waive all antecedent constitutional violations and
a defendant can still raise claims that stand in the way of conviction [even] if factual guilt is
validl established ).
4. In Halbert, the United States Supreme Court held that where the appellate court
considers the merits of the claim in ruling a motion for leave to appeal, a defendant has a
constitutional right to appointed counsel in filing the motion for leave to appeal. 545 U.S. at 61819. Michigan argued that even if the defendant had a constitutional right to appointed counsel he
had waived that right when he pled nolo contendere. Id. at 623. The Supreme Court found,
however, that the defendant did not waive his right to counsel because he had no recogni ed right
to appointed appellate counsel he could elect to forgo. Id.
5. The holding of Mullens is contrary to Halbert. Mullens holds that there is no Hurst error
where the defendant waived a jury recommendation at sentencing. Mullens, 197 So. 3d at 39.
Prior to Hurst, however, a Florida defendant could not have waived Hurst-required jury factfinding
because that right was not yet recognized by the courts. The pre-Hurst defendant could only waive
the right to a jury recommendation of life or death.
6. At the time of Defendant s death sentencing, before Hurst, Florida s unconstitutional
capital-sentencing scheme permitted only the judge, not the jury, to find facts that would expose a
defendant to a death sentence.

Defendant, therefore, waived only the right to a jury

recommendation, not to his then-unrecognized Eighth Amendment constitutional right to a
unanimous jury fact-finding prior to the imposition of a sentence of death. Under Halbert,
Defendant could not have waived his right to jury fact-finding or a unanimous jury verdict.

16

12/21/2017 11:41 PM Electronically Filed: Hillsborough County/13th Judicial Circuit Page 16

7. Even if this Court concludes that a pre-Hurst defendant could waive Hurst relief,
Defendant s waiver was not knowing, voluntary, and intelligent, Mullens, 197 So. 3d at 39(waiver
of jur sentencing must be knowingl , voluntaril , and intelligentl made ); Trease v. State, 41
So. 3d 119, 123 (Fla. 2010) (waiver of post-conviction counsel and post-conviction proceedings
must be knowing, intelligent, and voluntar ), because it did not consider the possibilit that
Florida s death-sentencing scheme would be found unconstitutional, see Rodgers v. Jones, 3:15cv-507-RH, ECF No. 15 (N.D. Fla. Aug. 24, 2016) (federal district court order noting Defendant s
waiver was pre-Hurst and did not address the possibilit that the entire Florida sentencing scheme
would be held unconstitutional ).
7. Mr. Valentine only waived his right to a non-unanimous jury recommendation.
8. Hurst v. Florida was a decision of fundamental significance that has resulted in
substantive and substantial upheaval in Florida s capital sentencing jurisprudence. The Sixth
Amendment right enunciated in Hurst v. Florida, and found applicable to Florida s capital
sentencing scheme, guarantees that all facts that are statutorily necessary before a judge is
authorized to impose a death sentence must be found by a jury beyond a reasonable doubt, pursuant
to the capital defendant s constitutional right to a jury trial. Hurst, 136 S. Ct. at 621. Hurst v.
Florida held that Florida s capital sentencing scheme violates the Sixth Amendment . . . . It
invalidated Fla. Stat. §§ 921.141(2) and (3) as unconstitutional. Under those provisions, a
defendant who had been convicted of a capital felony could be sentenced to death only after the
sentencing judge entered written fact findings that: 1) sufficient aggravating circumstances existed
that justify the imposition of a death sentence, and 2) insufficient mitigating circumstances existed

17

12/21/2017 11:41 PM Electronically Filed: Hillsborough County/13th Judicial Circuit Page 17

to outweigh the aggravating circumstances. Hurst, 136 S. Ct. at 620-21. Hurst v. Florida found
Florida s sentencing scheme unconstitutional because Florida does not require the jur to make
critical findings necessar to impose the death penalt , but rather, requires a judge to find these
facts. Id. at 622. On remand, the FSC held in Hurst v. State that Hurst v. Florida means that
before the trial judge may consider imposing a sentence of death, the jury in a capital case must
unanimously and expressly find all the aggravating factors that were proven beyond a reasonable
doubt, unanimously find that the aggravating factors are sufficient to impose death, unanimously
find that the aggravating factors outweigh the mitigating circumstances, and unanimously
recommend a sentence of death. Hurst, 202 So. 3d at 57.
Hurst Should Apply Retroactively to Mr. Valentine
Hurst applies retroactively to defendants whose sentences became final after the United States
Supreme Court issued its decision in Ring. Peterson v. State, 221 So. 3d 571, 585 (Fla. 2017).
Valentine s sentence became final on October 6, 1997. Therefore, Valentine falls outside of the
category of defendants the Florida Supreme Court has identified as eligible for the retroactive
effect of Hurst. Valentine, however, is entitled to the retroactive application of Hurst under federal
law. Where a constitutional rule is substantive, the Supremacy Clause of the United States
Constitution requires a state postconviction court to apply it retroactively. See Montgomery v.
Louisiana, 136 S. Ct. 718, 731-32 (2016).
In Hurst v. State, the Florida Supreme Court announced not one, but two substantive
constitutional rules. First, the FSC held that the Sixth Amendment requires that a jury decide whether
aggravating factors that have been proven beyond a reasonable doubt are sufficient in themselves to

18

12/21/2017 11:41 PM Electronically Filed: Hillsborough County/13th Judicial Circuit Page 18

warrant the death penalty and, if so, whether those factors outweigh the mitigating circumstances.
Hurst, 202 So. 3d at 53. Second, the FSC determined that the Eighth Amendment required that a jury
unanimously determine that the evidence presented at the penalty phase warrants imposition of a
death sentence. Id. at 62.
In Hurst v. State, the FSC stated that error under Hurst v. Florida is harmless onl if there
is no reasonable possibilit that the error contributed to the sentence. Hurst, 202 So. 3d at 68.
Moreover, the harmless error test is to be rigorousl applied, and the State bears an extremel
heavy burden in cases involving constitutional error. Id. (quoting State v. DiGuilio, 491 So. 2d
1129, 1137 (Fla. 1986)). Therefore, as to Hurst error, the burden is on the State, as beneficiar of
the error, to prove beyond a reasonable doubt that the jur s failure to unanimously find all the
facts necessar for imposition of the death penalt did not contribute to [the defendant] s death
sentence in this case. Id. at 68 (emphasis added).
Valentine asserts unequivocally that the Hurst error is not harmless in his case and any
decision to the contrary is a violation of his rights. Valentine recognizes that Mullens v. State, 17
So. 3d 745 (Fla. 2016), suggests defendants who waived a jury are not entitled to Hurst relief under
the Sixth Amendment. However, no court has yet addressed Valentine s argument that he could
not have knowingly waived his Eighth Amendment right to a unanimous fact

finding jury, since

that right did not yet exist.
Specifically, any waiver of a fundamental right must be knowing and voluntary. Johnson
v. Zerbst, 304 U.S., at 464-465, 58 S.Ct., at 1023. Cf. Von Moltke v. Gillies, 332 U.S. 708, 723724, 68 S.Ct. 316, 323, 92 L.Ed. 309 (plurality opinion of Black, J.). See also Adams v. United

19

12/21/2017 11:41 PM Electronically Filed: Hillsborough County/13th Judicial Circuit Page 19

States ex rel. McCann, 317 U.S., at 279, 63 S.Ct., at 242.
Further, anything less than Hurst relief for all post-Ring defendants leads to disparate
treatment among Florida capital defendants in violation of the Equal Protection Clause and the
Eighth Amendment. Ensuring uniformit and fairness in circumstances in Florida s application of
the death penalty requires full retroactive application of Hurst and the resulting new Florida law.
After all, death is a different kind of punishment from an other that ma be imposed in this
countr , and [i]t is of vital importance . . . that an decision to impose the death sentence be, and
appear to be, based on reason rather than caprice . . . Gardner v. Florida, 430 U.S. 349, 357-58
(1977).
The Florida Supreme Court has granted Hurst relief in many cases that were more
egregious than Mr. Valentine s. See e.g., Cole v. State, 221 So. 3d 534 (Fla. 2017) (two victims
buried alive and seven aggravating factors found); Calloway v. State, 210 So. 3d 1160 (Fla. 2017)
(five men were shot in the head execution style and six aggravating factors found); Johnson v.
State, 205 So. 3d 1285 (Fla. 2016) (three counts of first-degree murder where one of the victims
was a law enforcement officer and five aggravating factors found); Bradley v. State, 214 So. 3d
648 (Fla. 2017) (murder of Brevard Count Sheriff s Deput , Barbara Pill, and five aggravating
factors found); Pasha v. State, 42 Fla. L. Weekly S569 (Fla. May 11, 2017) (defendant murdered
his wife and another victim by cutting their throats and four aggravating factors found); Williams
v. State, 209 So. 3d 543 (Fla. 2017) (defendant was convicted of the kidnapping, robbery, and first
degree murder of an 81 year old woman and the jury unanimously found four out of five
aggravating factors on a special verdict form); Davis v. State, 217 So. 3d 1006 (Fla. 2017) (two

20

12/21/2017 11:41 PM Electronically Filed: Hillsborough County/13th Judicial Circuit Page 20

counts of first-degree murder, five aggravating factors found for one murder and three for the
other); Snelgrove v. State, 217 So. 3d 992 (Fla. 2017) (elderly couple brutally beaten and stabbed
to death and five aggravating factors found); and Hertz v. Jones, 218 So. 3d 428 (Fla. 2017) (two
counts of first-degree murder and six aggravating factors found). As all of these cases were more
aggravated and exhibit facts that are more heinous, the only way to distinguish Valentine s case is
that he waived his right to a jury.
However, Valentine s situation is unique and an individualized harmless error review will
show that the Hurst error was not harmless. There is no doubt that a properly instructed jury would
not have unanimously returned a death recommendation. In the wake of Hurst v. Florida and the
resulting new Florida law, the jury under Caldwell v. Mississippi, 472 U.S. 320 (1985) must be
correctly instructed as to its sentencing responsibility. Individual jurors must know that they each
will bear the responsibilit for a death sentence resulting in a defendant s execution since each
juror possesses the power to require the imposition of a life sentence simply by voting against a
death recommendation. See Perry, 210 So. 3d 630. As was explained in Caldwell, jurors must feel
the weight of their sentencing responsibility if the defendant is ultimately executed after no juror
exercised his or her power to preclude a death sentence. Indeed because the jur s sense of
responsibility was inaccurately diminished in Caldwell, the USSC held that the jur s unanimous
verdict imposing a death sentence in that case violated the Eighth Amendment and required the
resulting death sentence to be vacated. See Caldwell, 472 U.S. at 341.
It is likely that at least one juror would not join a death recommendation if Valentine was
granted a resentencing in front of a jury because the proper Caldwell instructions would be

21

12/21/2017 11:41 PM Electronically Filed: Hillsborough County/13th Judicial Circuit Page 21

required. The probability of one or more jurors voting for a life sentence increases when a jury is
told a death sentence could only be authorized if the jury returned a unanimous death
recommendation, and that each juror had the ability to preclude a death sentence simply by
refusing to agree to a death recommendation. See Caldwell, 472 U.S. at 330 ( In the capital
sentencing context there are specific reasons to fear substantial unreliability as well as bias in
favor of death sentences when there are state-induced suggestions that the sentencing jury may
shift its sense of responsibilit to an appellate court. ). Where the jurors sense of responsibilit
for a death sentence is not explained or is diminished, a jur s verdict in favor of a death sentence
violates the Eighth Amendment and the death sentence cannot stand. Caldwell, 472 U.S. at 341
( Because we cannot sa that this effort had no effect on the sentencing decision, that decision
does not meet the standard of reliabilit that the Eighth Amendment requires. ).
Furthermore, societ s evolving standards of decenc demand that Valentine be granted
Hurst relief, as the jury vote has evolved from a bare majority, to ten-to-two, to unanimous. In
Hurst, the Florida Supreme Court ruled that on the basis of the Eighth Amendment and on the
basis of the Florida Constitution, the evolving standards of decency now require jur

unanimit

in a recommendation of death in order for death to be considered and imposed. 202 So. 3d at 61.
Quoting the USSC, the Court in Hurst noted that the clearest and most reliable objective
evidence of contemporar values is the legislation enacted b the countr 's legislatures.

202

So. 3d at 61 (quoting Atkins v. Virginia, 536 U.S. 304, 312, 122 S. Ct. 2242, 153 L. Ed. 2d 335
(2002) (quoting Penry v. Lynaugh, 492 U.S. 302, 331, 109 S. Ct. 2934, 106 L. Ed. 2d 256 (1989)).
Then from a review of the capital sentencing laws throughout the United States, the FSC in Hurst

22

12/21/2017 11:41 PM Electronically Filed: Hillsborough County/13th Judicial Circuit Page 22

found that a national consensus reflecting societ s evolving standards of decenc was apparent:
The vast majority of capital sentencing laws enacted in this country provide the
clearest and most reliable evidence that contemporary values demand a defendant
not be put to death except upon the unanimous consent of the jurors who have
deliberated upon all the evidence of aggravating factors and mitigating
circumstances.
202 So. 3d at 61. Accordingly, the Court in Hurst concluded:
the United States and Florida Constitutions, as well as the administration of justice,
are implemented by requiring unanimity in jury verdicts recommending death as a
penalty before such a penalty may be imposed.
202 So. 3d at 63. See Hurst, 202 So. 3d at 73 (Pariente, J., concurring); see also Powell v.
Delaware, 153 A.3d 69 (Del. 2016).
A capital defendant s life no longer lies in the hands of a judge or a bare majorit ; it lies in
the hands of twelve individuals. What constitutes cruel and unusual punishment under the Eighth
Amendment turns upon considerations of the evolving standards of decency that mark the
progress of a maturing societ . Atkins v. Virginia, 536 U.S. 304, 312 (2002). This is because
[t]he standard of extreme cruelt is not merel descriptive, but necessaril embodies a moral
judgment. The standard itself remains the same, but its applicability must change as the basic
mores of societ change.

Kennedy v. Louisiana, 554 U.S. 407, 419 (2008) (quoting Furman v.

Georgia, 408 U.S. 238, 382 (1972)). According to Hurst v. State, the evolving standards of
decency are reflected in a national consensus that a defendant can only be given a death sentence
when a penalty-phase jury has voted unanimously in favor of the imposition of death. The USSC
has explained that the near-uniform judgment of the Nation provides a useful guide in delimiting
the line between those jur practices that are constitutionall permissible and those that are not.
Burch v. Louisiana, 441 U.S. 130, 138 (1979). The near-uniform judgment of the states is that

23

12/21/2017 11:41 PM Electronically Filed: Hillsborough County/13th Judicial Circuit Page 23

only a defendant who a jury unanimously concluded should be sentenced to death, can receive a
death sentence. As a result, those defendants who have had one or more jurors vote in favor of a
life sentence are not eligible to receive a death sentence. This class of defendants, those who have
had jurors formally vote in favor a life sentence, cannot be executed under the Eighth
Amendment. Therefore, Valentine must be granted relief and the opportunity to make a
constitutional decision regarding his waiver of a constitutional jury sentencing. It is arbitrary that
a defendant who was convicted of triple murders with an eleven-to-one vote receives relief, while
Valentine is denied the same opportunity. See Franklin v. State, 209 So. 3d 1241, 1248 (Fla.
2016) ( In light of the non-unanimous jury recommendation to impose a death sentence, we reject
the State s contention that an Ring- or Hurst v. Florida-related error is harmless. Id. We also
reject the State s contention that Franklin s prior convictions for other violent felonies insulate
Franklin s death sentence from Ring and Hurst v. Florida. Id.). To find that the Hurst error was
harmless and deny this right to Valentine would be manifest injustice and a violation of his equal
protection rights. See U.S. Const. amend. XIV.
I.

Conclusion
Notwithstanding the insufficient colloquy, Valentine cannot waive a constitutional right

that did not yet exist under Florida law but that should have been afforded to him and every capital
defendant. Now that a unanimous jury is required under the Eighth Amendment to sentence a
defendant to death, the conversations and assessments between counsel and capital defendants
change dramatically. Moreover, the colloquy required by a court in cases of waivers will also
evolve. Hurst impacts an attorne s strateg and decision-making throughout the trial, including

24

12/21/2017 11:41 PM Electronically Filed: Hillsborough County/13th Judicial Circuit Page 24

the decision whether to waive a penalty phase jury. No longer will the jur s role in determining
death-eligibility be advisory; the jury will make the ultimate decision of whether the defendant s
life will be spared. The new constitutional statute changes the harmlessness analysis because the
landscape of voir dire and death qualification, pre-trial motions, opening and closing arguments,
investigation and presentation of evidence in mitigation of a death sentence, challenging and
arguing against evidence in aggravation, and jury instructions have to change so that a capital
defendant is afforded a constitutional trial in accordance with the Sixth and Fourteenth
Amendments.
Mr. Valentine never had the constitutional benefit of the option of a penalty phase jury
returning a verdict making findings of fact. There is no way of knowing what aggravators, if
any, a jury unanimously could have found proven beyond a reasonable doubt, if the jurors
unanimously found the aggravators sufficient for death, or if the jurors unanimously found that
the aggravating circumstances outweighed the mitigating circumstances. Further, each
individual juror would be instructed that they individually carried the immense responsibility
of whether a death sentence was authorized or a life sentence was mandated. The jurors would
be told that they each were authorized to preclude a death sentence simply to be merciful. These
are all important considerations for a conversation regarding waiving a jury. Reviewing courts
cannot speculate as to what the findings or vote would be if Valentine was allowed a
constitutional jury sentencing.
Valentine requests that this Court vacate his sentences of death and order a new penalty
phase proceeding.

25

12/21/2017 11:41 PM Electronically Filed: Hillsborough County/13th Judicial Circuit Page 25

III. MR. VALENTINE DEA H EN ENCE IOLA E
HE EIGH H
AMENDMENT UNDER HURST V. STATE AND IT WOULD BE
FUNDAMENTALLY UNFAIR TO DEPRIVE HIM OF ITS BENEFIT.
A. Mr.
s death sentence violates the Eighth Amendment and Hurst v. State should
be applied retroactively.
The Florida Supreme Court held in Hurst v. State that enhanced reliability required by the
Eighth Amendment in capital cases requires a jury to unanimously find all facts before a death
sentence is permissible. Hurst v. State, 202 So. 3d at 59 ( we conclude that juror unanimit in an
recommended verdict resulting in a death sentence is required under the Eighth Amendment. ).
The right to a unanimous jury recommendation of death requires full retroactivity and anything
less is unreliable and violates the Eighth Amendment. In the wake of Hurst v. Florida, the resulting
new Florida statute, and the principle set out many years ago in Caldwell v. Mississippi, a death
sentence is constitutionally invalid when individual jurors are not told that they each bear the
responsibility for a death sentence, since each juror possesses the power to require the imposition
of a life sentence simply by voting against a death recommendation. Caldwell v. Mississippi, 472
U.S. 320, 328-29 (1985).
Hurst v. State established an Eighth Amendment rule that requires the three beyond-areasonable-doubt findings: (1) each aggravating circumstance; (2) that those particular aggravating
circumstances together are sufficient to justif imposition of the death penalt ; and (3) that those
particular aggravating circumstances together outweigh the mitigation in the case, to be made
unanimously by the jury. The substantive nature of the unanimity rule is apparent from the court s
explanation in Hurst v. State that unanimity (1) is necessary to ensure compliance with the
constitutional requirement that the death penalty be applied narrowly to the worst offenders, and
26

12/21/2017 11:41 PM Electronically Filed: Hillsborough County/13th Judicial Circuit Page 26

(2) ensures that the sentencing determination expresses the values of the communit as the
currentl relate to the imposition of the death penalt .

Hurst v. State, 202 So. 3d at 60-61. The

function of the unanimity rule is to ensure that Florida s death-sentencing scheme complies with
the Eighth Amendment and achieve[s] the important goal of bringing [Florida s] capital
sentencing laws into harmony with the direction of the society reflected in [the majority of death
penalty] states and with federal law.

Id. As a matter of federal retroactivity law, the rule is

therefore substantive. See Welch v. United States, 136 S. Ct. 1257, 1265 (2016) ( [T]his Court has
determined whether a new rule is substantive or procedural by considering the function of the
rule ). This is true even though the rule s subject concerns the method b which a jur makes its
decision. See Montgomery, 136 S. Ct. at 735 (noting that state s abilit to determine method of
enforcing constitutional rule does not convert rule from substantive to procedural).
Mr. Valentine also has a federal right to retroactivity under Montgomery v. Louisiana, 136
S. Ct. 718 (2016). Where a constitutional rule is substantive, the Supremacy Clause of the United
States Constitution requires a state post-conviction court to apply it retroactively. See Montgomery,
136 S. Ct. at 731-32 ( Where state collateral review proceedings permit prisoners to challenge the
lawfulness of their confinement, States cannot refuse to give retroactive effect to a substantive
constitutional right that determines the outcome of that challenge. ).
As was explained in Caldwell, jurors must feel the full weight of their responsibility of
sentencing an individual to death. Caldwell, 472 U.S. at 341 ( Because we cannot say that this
effort had no effect on the sentencing decision, that decision does not meet the standard of

27

12/21/2017 11:41 PM Electronically Filed: Hillsborough County/13th Judicial Circuit Page 27

reliabilit that the Eighth Amendment requires. ). In Mr. Valentine s case, had he had a jury, and
had it been instructed properly, he would have received a life sentence.
The likelihood of one or more jurors voting for a life sentence increases when a jury is told
that it must unanimousl

recommend death, that the judge cannot override the jur s

recommendation for life, and that each juror has the ability to preclude a death sentence simply by
refusing to agree to a death recommendation. Caldwell, 472 U.S. at 330 ( In the capital sentencing
context there are specific reasons to fear substantial unreliability as well as bias in favor of death
sentences when there are state-induced suggestions that the sentencing jury may shift its sense of
responsibilit to an appellate court. ).
IV.

THE EIGHTH AND FOURTEENTH AMENDMENTS TO THE UNITED
STATES CONSTITUTION REQUIRE THE RETROACTIVE
APPLICATION OF THE SUBSTANTIVE RULE ESTABLISHED BY
CHAPTER 2017-1.
a.

Florida created a substantive right in enacting Chapter 2017-1.

In Chapter 2017-1, the Florida Legislature expanded the substantive right created in
Chapter 2016-13 and rewrote the statute to provide that a defendant convicted of first degree
murder was to receive a life sentence unless a jury returned a unanimous death recommendation.
The right was extended to defendants in all homicide prosecutions regardless of the date of the
underlying homicide or the date that a conviction became final.
With the enactment of Chapter 2016-13 and Chapter 2017-1, the Florida Legislature
created a substantive right. For the first time, a capital defendant in Florida had a right to a life
sentence unless a jury unanimously voted to recommend a death sentence. Chapter 2017-1

28

12/21/2017 11:41 PM Electronically Filed: Hillsborough County/13th Judicial Circuit Page 28

provides that a defendant convicted of first degree murder has a right to be sentenced to life
imprisonment unless the State convinces a jury to unanimously return a death recommendation.
This right is a substantive right. It is not merely a procedural rule. If it were, it would violate the
separation of powers doctrine for the Legislature to enact it.
While Hurst v. State and Perry were premised upon the Florida Constitution, Chapter 201613 and Chapter 2017-1 were both crafted by the Florida Legislature and signed into law by the
Governor. The Florida Supreme Court has stated: Generall , the Legislature has the power to
enact substantive law, while the Court has the power to enact procedural law.

Allen v.

Butterworth, 756 So. 2d 52, 59 (Fla. 2000). The Court has also written: Substantive law has been
defined as that part of the law which creates, defines, and regulates rights, or that part of the law
which courts are established to administer. State v. Garcia, 229 So. 2d 236, 238 (Fla. 1969). The
Court further explained that substantive law includes those rules and principles which fix and
declare the primary rights of individuals with respect towards their persons and property. Adams
v. Wright, 403 So.2d 391 (Fla.1981). Haven Federal Savings & Loan Ass n v. Kirian, 579 So. 2d
730, 732 (Fla. 1991). In Benyard v. Wainwright, 322 So. 2d 473, 475 (Fla. 1975), the Court
reiterated, Substantive law prescribes the duties and rights under our s stem of government. The
responsibility to make substantive law is in the legislature within the limits of the state and federal
constitutions.
Under the doctrine of separation of powers, procedural matters are a judicial function, not
a legislative one. See State v. Raymond, 906 So. 2d 1045, 1049 (Fla. 2005) ( where there is no
substantive right conveyed by the statute, the procedural aspects are not incidental; accordingly,

29

12/21/2017 11:41 PM Electronically Filed: Hillsborough County/13th Judicial Circuit Page 29

such a statute is unconstitutional. ); Massey v. David, 979 So. 2d 931, 937 (Fla. 2008) ( We have
held that where a statute contains some procedural aspects, but those provisions are so intimately
intertwined with the substantive rights created by the statute, that statute will not impermissibly
intrude on the practice and procedure of the courts in a constitutional sense, causing a constitutional
challenge to fail. ). If Chapter 2016-13 had been purely procedural, it would have violated the
separation of powers doctrine enshrined in the Florida Constitution. Moreover, when the Court
determined in Perry that the 10-2 provision was unconstitutional, it could have fixed the defect
and rewritten the governing law if the offending provision was procedural. The Court did not do
that because it recogni ed that what was at issue was substantive law, or that part of the law which
creates, defines, and regulates rights. Garcia v. State, 229 So. 2d at 238.
If Chapter 2017-1 were merely procedural, besides being enacted in violated of the
separation of powers doctrine, it would be proper for it to attach to any capital sentencing
proceeding conducted after its effective date because it only sets out the manner by which the
parties should seek to litigate. State v. Raymond, 906 So. 2d at 1048 ( practice and procedure is
the method of conducting litigation involving rights and corresponding defenses. ). However,
Chapter 2017-1 is clearly substantive because it gives a defendant convicted of first degree murder
something that he or she did not have before: a right to a life sentence unless the jury returns a
unanimous death recommendation.
Chapter 2017-1 sets forth a substantive right that is personal. For example, the Sixth
Amendment right to representation by counsel attaches to a defendant who is criminally charged.
A substantive right must attach to a person, not a proceeding. Clearly, the right to a life sentence

30

12/21/2017 11:41 PM Electronically Filed: Hillsborough County/13th Judicial Circuit Page 30

unless the jury unanimously returns a death recommendation attaches to a defendant who is
convicted of first degree murder. It is a right that springs to life when the first degree murder
conviction is returned. It is a presumption of a life sentence, akin to the presumption of innocence.
Certainly, the Legislature could have provided that the right set forth in Chapter 2017-1 only
attached to defendants convicted of first degree murder after March 13, 2017, when Chapter 20171 became effective. The Legislature chose not to do it that way. Chapter 2017-1 established s
substantive right that was meant to apply retrospectively.
b. A substantive right cannot be extended arbitrarily without offending due process.
In Evitts v. Lucey, 469 U.S. 387, 400 (1985), the U.S. Supreme Court recogni ed that a
State need not provide a s stem of appellate review as of right at all. States have the option to not
provide appellate review of criminal convictions. See McKane v. Durston, 153 U.S. 684 (1894).
But when a State opts to act in a field where its action has significant discretionar elements, it
must nonetheless act in accord with the dictates of the Constitution

and, in particular, in accord

with the Due Process Clause. Evitts v. Lucey, 469 U.S. at 401. See Jones v. Barnes, 463 U.S. 745,
751 (1983) ( There is, of course, no constitutional right to an appeal, but in Griffin v. Illinois, 351
U.S. 12, 18 (1955), and Douglas v. California, 372 U.S. 353 (1963), the Court held that if an appeal
is open to those who can pa for it, an appeal must be provided for an indigent. ). Once a State
has granted prisoners a liberty interest, [the U.S. Supreme Court has] held that due process
protections are necessar

to insure that the state-created right is not arbitraril abrogated.

v. Jones, 445 U.S. at 488-89.

31

12/21/2017 11:41 PM Electronically Filed: Hillsborough County/13th Judicial Circuit Page 31

Vitek

When a state creates a right that carries a liberty or life interest, that right is protected by
the Due Process Clause of the Fourteenth Amendment. The U.S. Supreme Court has recognized
that states ma create libert interests that are entitled to the procedural protections of the Due
Process Clause of the Fourteenth Amendment. Vitek v. Jones, 445 U.S. 480, 488 (1980). A state
cannot establish a substantive right that provides a life and/or liberty interest which it arbitrarily
extends to some, but not others. To give some the benefit of Chapter 2017-1 while depriving Mr.
Valentine of the same benefit can only be described as arbitrary and a violation of due process.
See Griffith v. Kentucky, 479 U.S. 314, 323 (1987); Smith v. State, 598 So. 2d 1063, 1066 (Fla.
1992. Due process requires that the substantive right set forth in Chapter 2017-1
extended retrospectively to others
c.

which has been

must also be extended to Mr. Thompson.

In addition to violating the Due Process Clause, depriving Mr. Valentine of the
benefit of Chapter 2017-1 also violates the Eighth Amendment.
The Eighth Amendment is violated if substantive rights are doled out arbitrarily in capital

cases. In Johnson v. Mississippi, 486 U.S. 578 (1988), the U.S. Supreme Court discussed the
Eighth Amendment s requirement that death sentences be reliable and free from arbitrar factors:
The fundamental respect for humanity underlying the Eighth
Amendment s prohibition against cruel and unusual punishment
gives rise to a special need for reliabilit in the determination that
death is the appropriate punishment in an capital case. . . .
Although we have acknowledged that there can be no perfect
procedure for deciding in which cases governmental authority
should be used to impose death, we have also made it clear that
such decisions cannot be predicated on mere caprice or on factors
that are constitutionally impermissible or totally irrelevant to the
sentencing process.
Id.at 584-85 (internal citations omitted).

32

12/21/2017 11:41 PM Electronically Filed: Hillsborough County/13th Judicial Circuit Page 32

Mr. Valentine remains sentenced to death even though many others whose crimes, like
Mr. Valentine s, predated Ring will receive the benefit of the Hurst decisions and the new statute
at their resentencing proceedings. There is only one word to describe the distinction between their
circumstances and Mr. Valentine s and that word is arbitrar . To allow this arbitrar distinction
and leave Mr. Valentine s death sentences intact while others receive the right to a life sentence
unless the jury returns a unanimous death recommendation violates Furman v. Georgia, 408 U.S.
238 (1972). This claim is not about retroactivity of a court ruling. It is about a statutorily created,
substantive right that was intended to be retrospective. Rule 3.851 relief is required. Mr.
Valentine s death sentence must be vacated and at a minimum, a resentencing ordered.
CONCLUSION
Based on the foregoing, Mr. Valentine requests the following relief: (1) setting aside his
convictions for grand theft auto, burglary and kidnapping due to a failure to establish the corpus
delecti and essential elements of proof as set out supra; 2) a fair opportunity to demonstrate that
his death sentence stands in violation of the Sixth and Eighth Amendments and Hurst v. Florida,
Perry v. State, and Hurst v. State; (3) an opportunity for further evidentiary development to the
extent necessary; (4) leave to supplement this motion should new claims, facts, or law arise; and
(4) Rule 3.851 relief vacating his death sentence.
Respectfully submitted,
/s/Marie-Louise Samuels-Parmer
MARIE-LOUISE SAMUELS-PARMER
Fla. Bar No. 0005584
Samuels Parmer Law Firm, P.A.
P.O. Box 18988
Tampa, FL 33679
33

12/21/2017 11:41 PM Electronically Filed: Hillsborough County/13th Judicial Circuit Page 33

Ph:813-732-3321
Fax: 813-831-0061
marie@samuelsparmerlaw.com
COUNSEL FOR MR. VALENTINE

CERTIFICATION PURSUANT TO FLA. R. CRIM. PRO. 3.851(e)
Pursuant to Fla. R. Crim. P. 3.851(e)(2)(A) and (e)(1)(F), undersigned counsel hereby
certifies that discussions with Mr. Valentine of this motion and its contents has occurred over a
period time as relevant new Florida law has unfolded during the past year. Counsel has
endeavored to fully discuss and explain the contents of this motion with Mr. Valentine, and that
counsel to the best of her ability has complied with Rule 4-1.4 of the Rules of Professional
Conduct, and that this motion is filed in good faith.
/s/Marie-Louise Samuels-Parmer
MARIE-LOUISE SAMUELS-PARMER
Fla. Bar No. 0005584
Court-Appointed Counsel for Mr. Valentine
CERTIFICATE OF SERVICE
I HEREBY CERTIFY that a true copy of the foregoing was filed using the Florida Courts efiling
Portal

which

has

electronically

capapp@myfloridalegal.com;

Ron

served

the

Office

Gale,

of

Assistant

the

Attorney
State

General,
Attorney,

mailprocessingstaff@sao13th.com, and the Honorable Michelle Sisco, Circuit Court Judge,
siscodm@fljud13.org, on this 21st day of December, 2017.
/s/Marie-Louise Samuels-Parmer
MARIE-LOUISE SAMUELS-PARMER
Fla. Bar No. 0005584

34

12/21/2017 11:41 PM Electronically Filed: Hillsborough County/13th Judicial Circuit Page 34

Copies provided by U.S. Mail to:
Terence Valentine
DOC#119682
Union Correctional Institution
P. O. Box 1000
Raiford, FL 32083

35

12/21/2017 11:41 PM Electronically Filed: Hillsborough County/13th Judicial Circuit Page 35

12/21/2017 11:41 PM Electronically Filed: Hillsborough County/13th Judicial Circuit Page 36

12/21/2017 11:41 PM Electronically Filed: Hillsborough County/13th Judicial Circuit Page 37

12/21/2017 11:41 PM Electronically Filed: Hillsborough County/13th Judicial Circuit Page 38

12/21/2017 11:41 PM Electronically Filed: Hillsborough County/13th Judicial Circuit Page 39

12/21/2017 11:41 PM Electronically Filed: Hillsborough County/13th Judicial Circuit Page 40

12/21/2017 11:41 PM Electronically Filed: Hillsborough County/13th Judicial Circuit Page 41

12/21/2017 11:41 PM Electronically Filed: Hillsborough County/13th Judicial Circuit Page 42

12/21/2017 11:41 PM Electronically Filed: Hillsborough County/13th Judicial Circuit Page 43

12/21/2017 11:41 PM Electronically Filed: Hillsborough County/13th Judicial Circuit Page 44

12/21/2017 11:41 PM Electronically Filed: Hillsborough County/13th Judicial Circuit Page 45

12/21/2017 11:41 PM Electronically Filed: Hillsborough County/13th Judicial Circuit Page 46

12/21/2017 11:41 PM Electronically Filed: Hillsborough County/13th Judicial Circuit Page 47

12/21/2017 11:41 PM Electronically Filed: Hillsborough County/13th Judicial Circuit Page 48

12/21/2017 11:41 PM Electronically Filed: Hillsborough County/13th Judicial Circuit Page 49

12/21/2017 11:41 PM Electronically Filed: Hillsborough County/13th Judicial Circuit Page 50

12/21/2017 11:41 PM Electronically Filed: Hillsborough County/13th Judicial Circuit Page 51

12/21/2017 11:41 PM Electronically Filed: Hillsborough County/13th Judicial Circuit Page 52

12/21/2017 11:41 PM Electronically Filed: Hillsborough County/13th Judicial Circuit Page 53

12/21/2017 11:41 PM Electronically Filed: Hillsborough County/13th Judicial Circuit Page 54

12/21/2017 11:41 PM Electronically Filed: Hillsborough County/13th Judicial Circuit Page 55

12/21/2017 11:41 PM Electronically Filed: Hillsborough County/13th Judicial Circuit Page 56

12/21/2017 11:41 PM Electronically Filed: Hillsborough County/13th Judicial Circuit Page 57

12/21/2017 11:41 PM Electronically Filed: Hillsborough County/13th Judicial Circuit Page 58

12/21/2017 11:41 PM Electronically Filed: Hillsborough County/13th Judicial Circuit Page 59

12/21/2017 11:41 PM Electronically Filed: Hillsborough County/13th Judicial Circuit Page 60

12/21/2017 11:41 PM Electronically Filed: Hillsborough County/13th Judicial Circuit Page 61

12/21/2017 11:41 PM Electronically Filed: Hillsborough County/13th Judicial Circuit Page 62

12/21/2017 11:41 PM Electronically Filed: Hillsborough County/13th Judicial Circuit Page 63

12/21/2017 11:41 PM Electronically Filed: Hillsborough County/13th Judicial Circuit Page 64

12/21/2017 11:41 PM Electronically Filed: Hillsborough County/13th Judicial Circuit Page 65

12/21/2017 11:41 PM Electronically Filed: Hillsborough County/13th Judicial Circuit Page 66

12/21/2017 11:41 PM Electronically Filed: Hillsborough County/13th Judicial Circuit Page 67

12/21/2017 11:41 PM Electronically Filed: Hillsborough County/13th Judicial Circuit Page 68

12/21/2017 11:41 PM Electronically Filed: Hillsborough County/13th Judicial Circuit Page 69

12/21/2017 11:41 PM Electronically Filed: Hillsborough County/13th Judicial Circuit Page 70

12/21/2017 11:41 PM Electronically Filed: Hillsborough County/13th Judicial Circuit Page 71

12/21/2017 11:41 PM Electronically Filed: Hillsborough County/13th Judicial Circuit Page 72

12/21/2017 11:41 PM Electronically Filed: Hillsborough County/13th Judicial Circuit Page 73

12/21/2017 11:41 PM Electronically Filed: Hillsborough County/13th Judicial Circuit Page 74

12/21/2017 11:41 PM Electronically Filed: Hillsborough County/13th Judicial Circuit Page 75

12/21/2017 11:41 PM Electronically Filed: Hillsborough County/13th Judicial Circuit Page 76

12/21/2017 11:41 PM Electronically Filed: Hillsborough County/13th Judicial Circuit Page 77

12/21/2017 11:41 PM Electronically Filed: Hillsborough County/13th Judicial Circuit Page 78

12/21/2017 11:41 PM Electronically Filed: Hillsborough County/13th Judicial Circuit Page 79

12/21/2017 11:41 PM Electronically Filed: Hillsborough County/13th Judicial Circuit Page 80

